Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Layton Police Department
Layton, Utah
GR-80-01-014
July 10, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Layton, Utah Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a total of $1,350,000 to hire 14 new police officers, and $196,428 to purchase equipment and redeploy the equivalent of 11 existing full-time police officers from administrative duties to community policing.

We reviewed the police department's compliance with seven essential grant conditions and found that the police department complied with grant requirements with respect to budgeting for officers, hiring of officers, and community policing activities.  We found weaknesses in four of the seven areas we tested: matching funds, reimbursement requests, retention, and redeployment tracking.  As a result, we question $84,783 in grant funds received. 1  The police department:

Did not document the source, dates, and amounts of its local match.  The match came from the General Fund.  Officials stated that they would review options for identifying their match in the accounting system.

	Did not use actual costs for salaries and fringe benefits to determine total program outlays when requesting reimbursement.  Costs were determined by dividing the award amount and local match by the number of quarters in the grant and requesting the total of the two in equal payments for the life of the grant.  Also, the costs for sick leave, holiday, and vacation were included in the grant application as separate benefits when they were already included in the base salary.  City officials stated they would meet with the police department to develop a process for collecting actual salaries and fringe benefits.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and a definition of questioned costs.